                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM


                                                                             11          Page 1 of 1



         In January 2005, 01G received information that an NSF employee1had been advertising retail
         makeup for sale on the Announce Bulletin Board. A preliminary review identified three postings
         by the employee advertising the make-up items. It appeared that these postings were promoting a
         personal business in violation of NSF's policy regarding the personal use of NSF resources.

         When the subject was contacted to schedule an interview she informed OIG that she was leaving
         NSF employment in April 2005 to accept a position outside of NSF. This information was
         confirmed with the subject's supervisor and based on the subject's change in employment it was
         determiend that no action could be taken if the investigaiton concluded that the subject did
         violate NSF policy.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
